...

# A* -

No.
In the Supreme Court of the United States
Mark Anthony Jenkins,
Petitioner,
v.
TIMOTHY O’ROURKE, Jefferson Parish Assistant District Attorney,
Jefferson Parish Juvenile Court; ROBERT M. MURPHY, Former Judge of
the Louisiana Fifth Circuit Court of Appeal; KRISTYL TREADAWAY;
BARRON BURMASTER, Judge
Respondents.
CERTIFICATE OF SERVICE
I certify that opposing counsel for all parties have waived service of a paper
copy of the Petition for Writ of Certiorari with Appendix. Electronic service has
been made on all parties through their counsel of record as follows by the date of

filingj 'rjrtjzp.
Defendants

Counsel

Kristyl R. Treadaway, Esq.

Franklin Beahm, Esq., frank@beahm.com
Christopher G. Otten, Esq., chris@beahm.com

Judge Barron Burmaster

James Evans, Esq., evansj@ag.louisiana.gov

ADA Timothy O’Rourke

ADA Darren A, Allemand
dallemand@jpda.us

Robert M. Murphy,
Former Judge of the La. 5th
Circuit Court of Appeal

E. John Litchfield, Esq.
jlitchfxeld@berriganlaw.net
Carey Buckland Daste, Esq.
cdaste@berriganlaw. net

r
Mark Anthony Jenkins, pro se
3303 Hwy. 1 South
Donaldsonville. Louisiana 70346
P.O. Box 1402
504-610-8147

No.

In the Supreme Court of the United States
Mark Anthony Jenkins,
Petitioner,
v.
TIMOTHY O’ROURKE, Jefferson Parish Assistant District Attorney, Jefferson
Parish Juvenile Court; ROBERT M. MURPHY, Former Judge of the Louisiana Fifth
Circuit Court of Appeal; KRISTYL TREADAWAY; BARRON BURMASTER, Judge
Respondents.

CERTIFICATE OF COMPLIANCE WITH PAGE LIMIT.
TYPEFACE REQUIREMENTS. AND TYPE-STYLE REQUIREMENTS
1. This document complies with the page limit of Supreme Court Rule 33.2(b) for 8
V2 by 11 inch paper format because, excluding parts of the document exempted by
Rule33.1(d), the Petition for Writ of Certiorari consists of 27 pages.

2. This document complies with the typeface requirements of Rule 33.1(b) in
a proportionally spaced typeface using Word Perfect in 12 point size Century
Schoolbook.

Mark Anthony Jenkins , pro se
3303 Hwy. 1 South
Donaldsonville. Louisiana 70346
P.O. Box 1402
504-610-8147

received
SEP - 1 2020

Ca

